<html>
<title> - EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES WITH RESPECT TO PROMOTING ENERGY SECURITY OF EUROPEAN ALLIES THROUGH OPENING UP THE SOUTHERN GAS CORRIDOR</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    EXPRESSING THE SENSE OF THE HOUSE OF 
                     REPRESENTATIVES WITH RESPECT TO 
                     PROMOTING ENERGY SECURITY OF EUROPEAN 
                     ALLIES THROUGH OPENING UP THE SOUTHERN 
                     GAS CORRIDOR
=======================================================================


                                 MARKUP

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                              H. Res. 284

                               __________

                           SEPTEMBER 19, 2013

                               __________

                           Serial No. 113-64

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
82-845                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             GREGORY W. MEEKS, New York
JEFF DUNCAN, South Carolina          ALBIO SIRES, New Jersey
PAUL COOK, California                BRIAN HIGGINS, New York
GEORGE HOLDING, North Carolina       ALAN S. LOWENTHAL, California
STEVE STOCKMAN, Texas

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 284, Expressing the sense of the House of Representatives 
  with respect to promoting energy security of European allies 
  through opening up the Southern Gas Corridor...................     2
  Amendment in the nature of a substitute to H. Res. 284 offered 
    by the Honorable Dana Rohrabacher, a Representative in 
    Congress from the State of California, and chairman, 
    Subcommittee on Europe, Eurasia, and Emerging Threats........     7

                                APPENDIX

Markup notice....................................................    18
Markup minutes...................................................    19
Markup summary...................................................    20
The Honorable Gregory W. Meeks, a Representative in Congress from 
  the State of New York: Prepared statement......................    21


 EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES WITH RESPECT TO 
  PROMOTING ENERGY SECURITY OF EUROPEAN ALLIES THROUGH OPENING UP THE 
                         SOUTHERN GAS CORRIDOR

                              ----------                              


                      THURSDAY, SEPTEMBER 19, 2013

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2200, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call this hearing of the Subcommittee on 
Europe, Eurasia, and Emerging Threats to order, pursuant to 
notice. For the purpose of markup, I call up. H. Resolution 
284, expressing the sense of the House of Representatives with 
respect to promoting energy security of European allies through 
opening up the Southern Gas Corridor, and move its 
recommendation go to full committee.
    Without objection, the bipartisan amendment in the nature 
of a substitute provided to all members earlier this week will 
be the base text and is considered as read and open for an 
amendment at any point.

    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
    Mr. Rohrabacher. I now recognize myself to speak on this 
measure.
    House Resolution 284, introduced by Congressman Turner, is 
a timely piece of legislation which supports Azerbaijani, the 
European Union efforts to promote the development of energy 
reserves in the Caspian region and transportation lines to the 
West. This will help further Europe's energy security and the 
development of economic ties that will add stability to the 
region.
    This tremendous energy project will be an economic building 
factor that will benefit a wide swath of global population. 
Some see it as a balance to be used against Russia's influence, 
and that is a very negative way to look at it. It instead 
should be looked at as an uplifting project, not hostile to 
anyone or any country. Making oil and gas more accessible, more 
efficiently transported, and available to more people is a 
positive thing. That is why I am supporting this legislation 
and would not do so if the Southern Gas Corridor project was 
aimed at hurting any one country, especially Russia.
    This subcommittee has been investigating the issue of 
resource competition in Central Asia in the Caucasus. The 
United States should be supportive of our friends and allies 
who are developing the energy resources and building 
infrastructure which creates stability and lifts people out of 
poverty.
    I would especially like to highlight the significant role 
Azerbaijan is playing to develop the Southern Gas Corridor. 
Azerbaijan is an ally of the United States in a very tough part 
of the world. After having been to Baku, it is my sincere hope 
that the economic and security cooperation between our two 
Nations will continue to grow. Azerbaijan has come a long way 
since their independence from the Soviet Union, and we will 
continue to be their friend as they keep on the path of 
development of a vibrant economy and development of democratic 
institutions that are good for the people and good for the 
economy.
    The bipartisan amendment in the nature of substitute, which 
the ranking member and I have agreed to, includes an update to 
reflect the final selection of the trans-Adriatic pipeline 
route to carry natural gas from Caspian Sea to the markets in 
Europe.
    Members will have 5 days to submit their statements for the 
record.
    I now recognize my ranking member for his comments on this 
resolution. Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. And I thank you for 
working with me to include language to narrow the scope of 
today's resolution and promote energy-diversification 
initiatives, such as the development of the Southern Gas 
Corridor.
    Although our focus today rests on the Southern Gas 
Corridor, I support the promotion and development of energy-
diversification projects worldwide, including in Armenia and 
Turkmenistan. Such projects have the added benefit of 
increasing regional cooperation. Further, it might be cliche to 
say that energy security is a national security issue, but the 
fact remains that access to secure, reliable, affordable, and 
sustainable energy is essential to America's future prosperity, 
to defending our way of life, and to maintaining our global 
leadership.
    In recent years the United States has made tremendous 
strides in energy security using new technologies to diversify 
our energy mix and reduce our dependence on foreign sources. 
While I personally would like to see greater emphasis made on 
renewable types of energy sources, the progress we have made 
thus far has strengthened America's political and economic 
standing around the world.
    It is in America's interest to help other countries 
strengthen their own energy security, not just our partners and 
allies, but countries around the world. Overdependence on a 
single source of energy places a country at great risk in the 
event of conflict or natural disaster. In cases where one 
country depends almost exclusively on another for its energy, 
it also increases vulnerability to threats and coercion.
    Energy diversity dramatically reduces the risk of regional 
conflict and instability. It also promotes competition and 
innovation, which in turn reduce the cost of energy and 
increase its availability, which in turn helps alleviate 
poverty in developing countries and spur global economic 
growth.
    Innovation and new technologies have had a significant 
effect on world energy markets by increasing the number of 
energy-producing countries; however, equally significant 
advancements in energy-delivery mechanisms are needed to enable 
energy producers to export their energy to countries where 
energy is scarce. By helping countries transform themselves 
from energy producers into energy providers, we can 
significantly enhance global energy security.
    For decades, many European relied much too heavily on one 
source of natural gas. Development of the Southern Corridor 
project would change that reality by bringing vast reserves of 
natural gas from the Caspian to an eager European market. The 
United States can and should support this initiative by working 
with Turkey, Georgia, Azerbaijan, and the European Union and 
its member states to further develop this important gas 
corridor.
    Mr. Chairman, American support for the Southern Corridor 
project is not a zero-sum game intended to privilege one energy 
producer over another, nor should it be viewed as part of a 
global chess match. It is in the U.S. interests that our 
European partners and allies have access to a diversity of 
secure, reliable sources of energy. By helping to strengthen 
Europe's energy security, we strengthen the transatlantic 
partnership.
    Thank you, Mr. Chairman.
    Mr. Rohrabacher. Thank you, Mr. Keating.
    And I now recognize Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    I would like to offer my support for H. Res. 284. The bill 
recognizes the importance of European energy security. 
Supporting the Southern Gas Corridor is one way to do that. The 
Southern Gas Corridor reduces the EU's dependence on Russia by 
allowing access to resources from the Caspian and Central Asian 
regions.
    Supporting a non-Russian and non-Iranian pipeline to move 
natural gas from the Caspian region and Central Asia to Europe 
should be a priority. EU member states rely on natural gas. 
Natural gas comprised nearly 25 percent of the EU's primary 
energy consumption in 2011, that number expected to grow about 
30 percent by 2030. Far too long European customers have been 
held hostage by the Russians. Mr. Chairman, I was in the 
Ukraine when the Russians cut off the gas in the winter, and 
they cut it off for political reasons, and I can tell you it 
was cold in the Ukraine without that energy, and all because of 
political reasons. So competition would promote security for 
individual nations, but also for the region. Southern Gas 
Corridor would allow Europe to be less reliant on Russia.
    Just like the Caspian region, the U.S. has huge natural gas 
reserves. In April, I had a hearing on expanding exports of 
U.S. natural gas. U.S. companies want to export LNG to our 
friends and allies abroad. Unfortunately, the Department of 
Energy has been more of a hindrance than a help. Currently, in 
order to export natural gas, a person, or a company, has to get 
both a FERC and a DOE permit. FERC is approving the permits at 
a reasonable rate; DOE is not. These companies are at a 
standstill, so I am working on legislation to change that. 
Under my bill, if a company has both a FERC permit and a 
contract to export LNG, then DOE will have 60 days to either 
approve or deny them a permit. If DOE does not reach a decision 
in those 60 days, the company will get the permit to export.
    Just like our friends in Europe, we don't have time to wait 
around on government. In that same spirit, I would urge my 
colleagues to support H. Res. 284.
    I yield back.
    Mr. Rohrabacher. Thank you very much, Your Honor.
    And I now recognize Congressman Stockman from Texas.
    Mr. Stockman. Thanks.
    Mr. Chairman, I ask that you put my name also on the bill. 
But in direction to my colleague, Mr. Poe, on the gas, if you 
do that, please add my name to the bill because it is 
important, especially to my district. We are anxiously awaiting 
on the DOE also.
    I just got back from Azerbaijan, and this is a nation which 
has really turned around quite significantly. It is a nation 
which the GDP, since the new leader has taken over and gone to 
free economics, has developed very rapidly, and this is good 
not just for Europe, but it is also good for the region and for 
competition. And I just--excited that you are--Mr. Chairman, 
that you have introduced it.
    And I yield back the balance of my time.
    Mr. Rohrabacher. Thank you very much.
    And would you--do you have a statement?
    Mr. Marino. No, sir.
    Mr. Rohrabacher. All right. Well, you got here just in 
time.
    So no other members, I see, are seeking to speak on this 
resolution. So are there any amendments to this resolution?
    All right. Hearing no amendments, the question occurs on 
the motion to report H. Res. 284 favorably, as amended. All in 
favor, say ``aye.''
    All opposed?
    I don't hear any. In the opinion of the Chair, the ayes 
have it. The motion is approved. The bill is reported 
favorably.
    Okay. That is it. Is there anyone--no other requests? That 
is it.
    Want to thank the members and the staff for all their 
assistance. And let us move forward now with full committee. 
And, as I say, I think that when we are facilitating this--a 
transportation, we are making energy more accessible throughout 
the world, wherever that is. That is a positive thing. It 
uplifts people. We are talking about the creating the existence 
of wealth. And the existence of wealth is a very positive 
thing, especially for people who are trying to uplift their 
conditions in so many parts of the world, especially now 
Central Asia, which is the focus of this committee.
    So with that said, the subcommittee now stands adjourned.
    [Whereupon, at 2:15 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <F-dash>\<Hoarfrost><brit-pound><acctof><acctof>a<natural><variable>\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



        <F-dash>\\<box><box><loz>s stat<box><acctof><box><Rx>t\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
